Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 EFFECT OF THE HOME HEALTH 

 PROSPECTIVE PAYMENT SYSTEM 

   ON THE QUALITY OF HOME 

        HEALTH CARE





                    Daniel R. Levinson

                    Inspector General 


                      January 2006

                     OEI-01-04-00160

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
    E X E C U T I V E                                S U          M M A R Y
 Δ          I NX TE RC OU DT UI VC ET I SO UN M M A R Y
            E                                                                                                               



                                OBJECTIVE
                                To determine how hospital readmission and emergency department visit
                                rates for Medicare beneficiaries discharged from hospitals to home
                                health care have changed since implementation of the home health
                                prospective payment system (PPS).


                                BACKGROUND
                                As a result of the Balanced Budget Act of 1997, the Centers for
                                Medicare & Medicaid Services (CMS) implemented the PPS for
                                Medicare home health care services in 2000. PPS was mandated in
                                response to rapidly growing home health spending that had resulted
                                from financial incentives under the previous cost-based system. Under
                                the PPS, home health agencies receive a unit of payment that reflects a
                                national 60-day episode rate with applicable adjustments. That
                                payment is designed to reflect the clinical and functional severity of a
                                beneficiary’s condition.

                                The payment for an episode of care under the PPS can create a financial
                                incentive to limit visits to patients, thus raising questions about how
                                often home health agency staff check the health conditions of their
                                patients. CMS, the Government Accountability Office, and the
                                Medicare Payment Advisory Commission have all stressed the need to
                                monitor outcomes of care following the implementation of the PPS
                                because of this incentive. Increases in the rates of hospital readmission
                                and emergency department visits are indicators of poor quality of care.

                                We used Medicare claims data and data on beneficiaries’ clinical and
                                functional characteristics to measure the rate of readmissions to
                                hospitals and the rate of visits to hospital emergency departments. We
                                analyzed these data for a consistent 3-month period (April–June) for
                                2000 (which served as the baseline), 2001, 2002, and 2003.


                                FINDINGS
                                Hospital readmission rates remain unchanged. Overall hospital
                                readmission rates for Medicare home health beneficiaries discharged
                                from hospitals remained at 47 percent from 2000 through 2003. Our
                                analysis showed no consistent trend in hospital readmission rates for
                                beneficiaries with at-risk diagnoses, although there were small
                                increases in readmission rates for beneficiaries with renal failure,


OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   i
    E X E C U T I V E                                S U          M M A R Y


                                multiple sclerosis, and pulmonary disease. Readmission rates due to
                                preventable adverse events remained low.
                                Minimal changes in emergency department visits. The overall rate of
                                emergency department visits for Medicare home health beneficiaries
                                discharged from hospitals increased slightly, from 29 to 30 percent, from
                                2000 through 2003. Our analysis showed a slight increase in rates of
                                emergency department visits for beneficiaries with at-risk diagnoses,
                                including renal failure and heart failure. The rates of emergency
                                department visits due to preventable adverse events remained low, at
                                less than 1 percent.


                                CONCLUSION
                                Our analysis showed little overall change in hospital readmission rates
                                and emergency department visit rates following the implementation of
                                the home health PPS. This result suggests that the change in payment
                                systems has not led to increased use of hospital and emergency
                                department services.

                                At the same time, however, our analysis shows that beneficiaries with
                                certain diagnoses, such as renal failure, pulmonary disease, and
                                multiple sclerosis, had higher hospital readmission rates and more
                                visits to emergency departments than other beneficiaries.

                                Consequently, it would be prudent to continue to monitor indicators of
                                quality in home health care.


                                AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                RESPONSE
                                In its comments to the draft report, CMS agreed with our findings of
                                little change in hospital readmission and emergency department visit
                                rates following the implementation of PPS. The agency also agreed
                                with our observation that it would be prudent to continue monitoring
                                indicators of quality in home health care. CMS stated that the results
                                presented in the report will assist it in measuring and reporting on the
                                performance of home health care.

                                We clarified the report background based on technical comments that
                                CMS provided. The full text of CMS’s comments is included as
                                Appendix A.




OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   ii
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .................................... i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 5

                   Hospital readmission rates unchanged . . . . . . . . . . . . . . . . . . . . . . 5 


                   Minimal changes in emergency department visit rates. . . . . . . . . . 7 




         CONCLUSION ............................................. 9




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 




         APPENDIX A:                  A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . 12 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

    I N T R O D              U C T              I O N
 Δ          I N T R O D U C T I O N                                                        



                                OBJECTIVE
                                To determine how hospital readmission and emergency department visit
                                rates for Medicare beneficiaries discharged from hospitals to home
                                health care have changed since implementation of the home health
                                prospective payment system (PPS).


                                BACKGROUND
                                The Home Health Prospective Payment System
                                Prior to 1997, Medicare paid for home health services under a
                                cost-based system. That payment system created an incentive for home
                                health agencies (HHA) to increase their Medicare revenues by
                                delivering more services than necessary. From 1990 to 1997, Medicare’s
                                spending on home health services rose from $3.7 billion to $16.7 billion,
                                and the number of HHAs increased from 5,730 to 10,807. In 1997,
                                almost 3.6 million beneficiaries received home health services.1
                                In response to this rapidly growing home health spending, Congress
                                enacted the Balanced Budget Act of 1997 (BBA),2 which required the
                                Centers for Medicare & Medicaid Services (CMS) to implement a PPS
                                for home health services by October 1, 1999. In 1999, Congress passed
                                the Omnibus Consolidated and Emergency Supplemental
                                Appropriations Act, delaying the implementation of home health PPS
                                until October 1, 2000. The BBA also called for the implementation of an
                                interim payment system (IPS), which revised the payment limits on
                                home health services as a transition step to the new PPS. Beginning in
                                October 1997, the IPS subjected Medicare HHAs to a new payment limit
                                that was based on an aggregate per-beneficiary amount. This cap
                                applied to an agency’s total Medicare payments and did not limit
                                payments for specific beneficiaries.

                                After implementation of the IPS, Medicare’s spending on home health
                                services fell to $7.9 billion in 1999.3 By that same year, the number of
                                HHAs decreased to about 7,830,4 and the number of beneficiaries
                                receiving these services fell to 2.7 million.5
                                The home health PPS replaced the IPS on October 1, 2000. Under the
                                PPS, agencies receive a payment for each 60-day episode of care. For
                                calendar year 2005, the base payment for each episode is $2,264.28.
                                That base payment is adjusted by placing the beneficiary into 1 of 80
                                Home Health Resource Groups (HHRG), which reflect the clinical and
                                functional severity of a beneficiary’s condition and recent use of other

OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   1
    I N T R O D 
U C T                          I O N


                                health services. In addition, the base rate is affected by wage
                                adjustment factors (wage index) to account for area wage differences.
                                The Outcome and Assessment Information Set
                                The Outcome and Assessment Information Set (OASIS) is a clinical
                                assessment tool that evaluates patients and measures outcomes
                                through the use of 79 demographic, clinical, and functional data items.
                                A registered nurse or rehabilitation therapy skilled professional
                                conducts a comprehensive assessment of a beneficiary receiving home
                                health services when specific events occur and at the end of each 60-day
                                cycle of home health services. This assessment includes collection of
                                OASIS data.6,7
                                The OASIS serves two major purposes. First, the PPS uses the OASIS
                                data to determine into which HHRG a beneficiary falls. Second, the
                                OASIS provides a mechanism to monitor quality.

                                The OASIS captures information regarding hospital readmissions, visits
                                to emergency departments, and adverse events that could cause a
                                hospital readmission or emergency department visit. Adverse events
                                include: (1) improper medication administration or side effects, toxicity,
                                and anaphylaxis; (2) injury caused by a fall or accident at home;
                                (3) wound infection, deteriorating wound status, and new lesion/ulcer;
                                and (4) hypo/hyperglycemia or diabetes out of control.
                                Earlier Reports on the Effect of Home Health Payments on the Quality of
                                Care
                                In 1999, OIG assessed how the IPS affected beneficiaries’ access to
                                home health care following discharge from hospitals. In that report,
                                discharge planners volunteered concerns that some beneficiaries may
                                not have received the care they needed under the IPS.8
                                In response to those concerns, OIG assessed the impact of the IPS on
                                readmissions and emergency department visits. That report, released
                                in 2000, found that these rates had decreased since implementation of
                                the IPS in 1999.9
                                Concerns About Implementation of the Home Health PPS and Quality of
                                Care
                                On its Home Health Compare Web site, CMS states that even with good
                                home health care, beneficiaries may require readmission or an
                                emergency department visit.10 Home Health Compare also advises
                                beneficiaries that “some inpatient hospital care [and emergency care]



OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   2
    I N T R O D              U C T              I O N


                                may be avoided if the home health staff is doing a good job at checking
                                your health condition at each visit to detect problems early.”

                                The home health PPS creates a financial incentive to limit visits, thus
                                raising questions about how often HHA staff check the health conditions
                                of their patients. Increases in readmission rates or emergency
                                department visits could indicate poor quality care. The incentive
                                created by the PPS calls for a system to ensure that beneficiaries receive
                                adequate visits.

                                CMS, the Government Accountability Office, and the Medicare Payment
                                Advisory Commission (MedPAC) have stated that monitoring outcomes
                                of care following implementation of the PPS is important because of
                                incentives in the payment system to lower the level of services
                                delivered.11 MedPAC has also cautioned that the ambiguous definition
                                of the home health benefit, along with the 60-day episode of care and
                                broad range of services offered, can lead to greater opportunities for
                                restricting care in home health than in other care settings.


                                METHODOLOGY
                                We based our analysis on a database created from the OASIS and the
                                National Claims History (NCH) file. The NCH file incorporates
                                100 percent of home health claims, 100 percent of inpatient hospital
                                claims, and 100 percent of outpatient hospital claims.

                                We identified all beneficiaries who began a new home health episode
                                during a consistent 3-month period (April 1 through June 30) for each
                                year (2000 through 2003). The 2000 data serve as our pre-PPS baseline.
                                To qualify as a new home health episode, beneficiaries must have had
                                no home health services billed to Medicare in the 60 days prior to the
                                episode start date. After we identified these episodes, we used inpatient
                                claims to limit the dataset to beneficiaries who had been discharged
                                from hospitals within the 30 days prior to starting home health care.

                                For each episode, we used claims data to determine if the beneficiary
                                had a readmission or an emergency department visit. We considered a
                                readmission or emergency department visit to be associated with the
                                episode if (1) it occurred during the initial 60-day home health episode
                                of care, or (2) it occurred within 30 days after the initial episode. We
                                extended the length of time to capture any beneficiary whose hospital
                                readmission or emergency department visit occurred in the month
                                immediately following the conclusion of his or her home health services.


OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   3
                                We analyzed only the first readmission and/or emergency department
                                visit for each home health episode. However, we calculated the
                                readmission rate separately from the emergency department visit rate.
                                Thus, if a beneficiary had both a readmission and an emergency
                                department visit, we included each in the rate calculations.
                                For each year, we calculated hospital readmission and emergency
                                department rates by dividing the number of beneficiaries who were
                                discharged from the hospital and received home health services and who
                                were readmitted to hospitals or visited emergency departments by the
                                total number of beneficiaries receiving home health services.

                                We identified the primary diagnosis associated with each readmission
                                and emergency department visit. We then calculated the percentage of
                                those beneficiaries who had at-risk diagnoses12 and the percentage who
                                were readmitted and/or visited an emergency department due to
                                preventable adverse events. To enable us to compare over time, we used
                                the same International Classification of Diseases (ICD-9) and Diagnosis
                                Related Groups (DRG) codes used in the 2000 OIG inspection. That
                                report looked at numerous studies that analyzed the effects of the IPS
                                and the adequacy of home health care to identify diagnoses and patient
                                types that could have been at risk of receiving inadequate care.13
                                To parallel our previous inspection, we limited our analysis to Medicare
                                beneficiaries who received home health services following
                                hospitalization. During the period of our analysis, this population
                                ranged from 64 to 66 percent of the universe of beneficiaries receiving
                                home health services.14 Medicare has no prior hospitalization
                                requirement for home health services, and beneficiaries come from
                                nursing homes and the community as well as from hospitals.
                                We also limited our analysis to describing how the rates of hospital
                                readmission and emergency department visits for Medicare
                                beneficiaries who received home health services changed since
                                implementation of the PPS. Our analysis does not address the cause of
                                any changes.

                                We conducted this review in accordance with the “Quality Standards for
                                Inspections” issued by the President’s Council on Integrity and
                                Efficiency and the Executive Council on Integrity and Efficiency.




OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   4
 Δ          F I N D I N G S 


         Hospital Readmission Rates                   Overall hospital readmission rates for Medicare
              Remained Unchanged                      beneficiaries discharged from hospitals who
                                                      received home health services remained
                                unchanged from 2000 to 2003. In 2000, hospital readmission rates
                                under IPS were about 47 percent. The readmission rates held steady
                                from 2001 to 2003 after PPS replaced IPS. (See Table 1.)

              Table 1
              Hospital Readmission Rates for Medicare Home Health Beneficiaries
                                                                  IPS                    PPS
                                                                                                                                                   Difference
                                                                           2000            2001              2002                2003              2000–2003
              Percentage of Medicare
              home health beneficiaries                                     47%            47%                47%                47%                            0%
              readmitted to the hospital
             Source: OIG analysis of National Claims History file data, 2005.

                                No consistent trend in hospital readmission rates by beneficiary diagnosis
                                Based on a previous OIG report that examined the effects of IPS and the
                                adequacy of home health care,15 we included Medicare beneficiaries
                                with the eight initial hospital diagnoses listed in Table 2 as at risk for
                                receiving inadequate care. Our analysis showed no consistent trend in
                                hospital readmission rates for beneficiaries with at-risk diagnoses from
                                2000 through 2003.16 While multiple sclerosis and pulmonary disease
                                each showed 5 percentage point increases, diabetes and Alzheimer’s
                                remained the same and dementia decreased by 1 percentage point.


            Table 2
            Percentage of At-Risk Medicare Home Health Beneficiaries
            Readmitted to the Hospital
                                                                        IPS           PPS                                                      Difference
            Diagnosis and ICD-9 Code
                                                                        2000           2001                 2002            2003               2000–2003
            Dementia – 294                                               19%             18%                17%             18%                               -1%
            Renal failure – 586                                          41%             46%                45%             45%                               +4%
            Diabetes – 250                                               27%             28%                28%             27%                               0%
            Alzheimer’s – 331                                            16%             17%                16%             16%                               0%
            Heart failure – 428                                          38%             38%                38%             38%                               0%
            Multiple sclerosis – 340                                       7%            12%                11%             12%                               +5%
            Pulmonary disease – 494                                      31%             33%                35%             36%                               +5%
            Quadriplegia – 344                                           20%             19%                22%             18%                               -2%
            Source: OIG analysis of National Claims History file data, 2005.

OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E          5
    F   I N D I N G              S


                                We examined the five most common DRGs associated with Medicare
                                beneficiaries who were readmitted to the hospital. The ranking of the
                                five most common initial hospital DRGs for Medicare home health
                                beneficiaries remained the same from 2000 through 2003. (See Table 3.)
                                In addition, the rates of readmission for beneficiaries with those
                                diagnoses remained stable.



        Table 3
        Highest Volume Diagnosis Related Groups for Medicare Home Health
        Beneficiaries Readmitted to Hospitals
                                                                                        IPS                PPS                                            Difference
        Initial Hospital Diagnosis and DRG*
                                                                                          2000             2001        2002            2003               2000–2003
        Heart failure and shock – 127                                                           8%           8%         7%               7%                     -1%
        Rehabilitation – 462                                                                    6%           7%         7%               7%                    +1%
        Simple pneumonia and pleurisy – 089                                                     4%           4%         4%               4%                      0%
        Chronic obstructive pulmonary disease – 088                                             4%           4%         4%               4%                      0%
        Major joint and limb reattachment – 209                                                 4%           4%         4%               4%                      0%
     * Refers to DRG for the first hospital admission.
       Source: OIG analysis of National Claims History file data, 2005.


                                Stability in readmission rates for preventable adverse events
                                The OASIS dataset captures information on whether beneficiaries
                                readmitted to the hospital needed care because of one of four adverse
                                events: (1) improper medication administration, medication side effects,
                                toxicity, and anaphylaxis; (2) injury caused by fall or accident at home;
                                (3) wound infection, deteriorating wound status, and new lesion/ulcer;
                                and (4) hypo/hyperglycemia or diabetes out of control. The readmission
                                rate for wound infection is about 2 percent, and the rate for the other
                                three adverse events is less than 1 percent. Readmission rates for two
                                of the four adverse events remained the same and the other two
                                changed by less than 0.2 percent from 2000 to 2003.




OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E       6
    F    I N D I N G              S



         Minimal Changes in Emergency Department                       The rate of emergency department
                                       Visit Rates                     visits for Medicare home health
                                                                       beneficiaries discharged from
                                 hospitals increased slightly from 2000 to 2003. When Medicare
                                 reimbursed home health agencies under IPS in 2000, 29 percent of
                                 home health beneficiaries had an emergency department visit. After
                                 the PPS took effect, the percentage stayed the same in 2001 and 2002,
                                 but increased to 30 percent in 2003. (See Table 4.)

          Table 4
          Emergency Department Visit Rates for Medicare Home Health Beneficiaries
                                                                 IPS                   PPS
                                                                                                                                                Difference
                                                                         2000           2001                2002             2003               2000–2003
          Percentage of Medicare home
                                                                          29%             29%                29%             30%                               +1%
          health beneficiaries with visits to
          emergency department

         Source: OIG analysis of National Claims History file data, 2005.


                                 Little change in rates of emergency department visits by beneficiary
                                 diagnosis
                                 The percentages of home health beneficiaries with at-risk diagnoses
                                 who had an emergency department visit increased slightly from 2000 to
                                 2003. Table 5 shows that four of the eight diagnoses increased by as
                                 little as 1 percent. Beneficiaries with renal failure had the largest
                                 increase, from 22 percent to 26 percent.

         Table 5
         Percentage of At-Risk Medicare Home Health Beneficiaries Who Made
         Emergency Department Visits
                                                                 IPS                 PPS
         Diagnosis and ICD-9 Code                                                                                                               Difference
                                                                   2000               2001                 2002          2003
                                                                                                                                                2000–2003
         Dementia – 294                                                 13%             14%                 13%              14%                      +1%
         Renal failure – 586                                            22%             28%                 28%              26%                               +4%
         Diabetes – 250                                                 18%             19%                 19%              20%                               +2%
         Alzheimer’s – 331                                              11%             13%                 12%              12%                               +1%
         Heart failure – 428                                            19%             22%                 22%              22%                               +3%
         Multiple sclerosis – 340                                         9%            10%                 9%               10%                               +1%
         Pulmonary disease – 494                                        19%             19%                 20%              20%                               +1%
         Quadriplegia – 344                                             13%             15%                 15%              15%                               +2%
        Source: OIG analysis of National Claims History file data, 2005.

OEI-01-04-00160 THE EFFECT    OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E         7
    F    I N D I N G              S


                                 We examined the five most common DRGs associated with Medicare
                                 beneficiaries who visited the emergency department. The ranking of
                                 the five most common initial hospital diagnoses for Medicare home
                                 health beneficiaries changed slightly before and after the
                                 implementation of the PPS. The top four diagnoses remained the same.
                                 Specific cerebrovascular disorders (DRG 014) had the fifth-highest
                                 volume in 2000, although it dropped to sixth by 2003. In addition, the
                                 rates of emergency department visits for beneficiaries in the five
                                 diagnoses listed remained stable. (See Table 6.)


         Table 6
         Highest Volume DRGs for Medicare Home Health
         Beneficiaries With Emergency Department Visits
                                                                                         IPS                PPS                                            Difference
         Initial Hospital Diagnosis and DRG*
                                                                                           2000             2001        2002            2003               2000–2003
         Rehabilitation – 462                                                                    7%           7%         7%               8%                    +1%
         Heart failure and shock – 127                                                           7%           6%         6%               6%                     -1%
         Major joint and limb reattachment – 209                                                 4%           5%         5%               5%                    +1%
         Simple pneumonia and pleurisy – 089                                                     4%           4%         4%               4%                      0%
         Chronic obstructive pulmonary disease – 088                                             3%           4%         3%               4%                    +1%
        * Refers to DRG for the first hospital admission
          Source: OIG analysis of National Claims History file data, 2005.


                                 Stability in emergency department visit rates for preventable adverse events
                                 The rates for emergency department visits due to the four measured
                                 preventable adverse events for home health beneficiaries remained
                                 stable from 2000 to 2003. The emergency department visit rates for all
                                 four adverse events were less than 1 percent. Emergency department
                                 visit rates for home health beneficiaries for two of the adverse events
                                 (wound infection and hypo/hyperglycemia) increased 0.1 percent in
                                 4 years, while emergency department visit rates for the other two
                                 (improper medication administration and injury caused by fall or
                                 accident at home) remained the same.




OEI-01-04-00160 THE EFFECT    OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E       8
 Δ          C O N C L U S I O N                                                


                                Our analysis shows little overall change in hospital readmission rates
                                and emergency department visit rates following the implementation of
                                the home health PPS for beneficiaries discharged from hospitals. This
                                result suggests that the change in payment systems has not led to
                                increased use of hospital and emergency services.

                                At the same time, however, our analysis shows that beneficiaries with
                                certain diagnoses are being readmitted to hospitals and visiting
                                emergency departments to a greater extent than prior to the PPS. Most
                                notably, beneficiaries with a primary diagnosis of renal failure showed
                                increases in readmission rates and use of emergency departments.
                                Beneficiaries with a primary diagnosis of pulmonary disease or multiple
                                sclerosis also showed increased hospital readmission rates and, to a
                                lesser degree, increased rates of emergency department usage.

                                Consequently, it would be prudent to monitor indicators of quality in
                                home health care, such as readmission rates and use of emergency
                                departments, on an ongoing basis.


                                AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                RESPONSE
                                In its comments to the draft report, CMS agreed with our findings that
                                there has been little change in hospital readmission rates and
                                emergency department visit rates following the implementation of PPS.
                                The agency also agreed with our observation that it would be prudent to
                                continue monitoring indicators of quality in home health care in light of
                                our analysis that showed that beneficiaries with certain diagnoses had
                                higher hospital readmission rates and more visits to emergency
                                departments than other beneficiaries. CMS stated that the results
                                presented in the report will assist it in measuring and reporting on the
                                performance of home health care.

                                We clarified the report background based on technical comments that
                                CMS provided. The full text of CMS’s comments is included as
                                Appendix A.




OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   9
 Δ          E N D N O T E S                                      





                                1   Centers for Medicare & Medicaid Services, “Health Care Financing
                                     Review: Medicare and Medicaid Statistical Supplement: 2001.”

                                2    P. L. 105-33.

                                3   Centers for Medicare & Medicaid Services, “Health Care Financing
                                     Review: Medicare and Medicaid Statistical Supplement: 2001.”

                                4   http://www.nahc.org/NAHC/LegReg/Crisis/hhasbystate.html.

                                5   Centers for Medicare & Medicaid Services, “Health Care Financing
                                     Review: Medicare and Medicaid Statistical Supplement: 2001.”

                                6   42 CFR 484.55(a)(1) and (2) Condition of Participation: Comprehensive
                                     assessment of patients.

                                7   These events and intervals are the start of care, end of each 60-day
                                     home health episode, time of a transfer to an inpatient facility,
                                     resumption of home health services after a hospitalization, hospital
                                     discharge, and death at home.

                                8   Department of Health and Human Services, Office of Inspector General,
                                     Final Report, “Medicare Beneficiary Access to Home Health Agencies,”
                                     OEI-02-99-00530, October 1999.

                                9   Department of Health and Human Services, Office of Inspector General,
                                     Final Report, “Adequacy of Home Health Services: Hospital
                                     Re-Admissions and Emergency Room Visits,” OEI-02-99-00531,
                                     September 2000.

                                10   www.medicare.gov/HHCompare/Home.asp, accessed August 1, 2005.

                                11   Centers for Medicare & Medicaid Services’ PPS concerns found in the
                                     agency’s comments to the Department of Health and Human Services,
                                     Office of Inspector General’s Final Report, “Adequacy of Home Health
                                     Services: Hospital Re-Admissions and Emergency Room Visits,”
                                     OEI-02-99-00531, September 2000, p. 19.




OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   10
                                     Government Accountability Office’s PPS concerns found in “Medicare
                                      Home Health: Prospective Payment System Will Need Refinement as
                                      Data Become Available,” No. HEHS-00-9, April 2000.

                                     Medicare Prospective Payment Assessment Commission’s PPS concerns
                                     found in “Report to the Congress: Medicare Payment Policy,” March
                                     2004.

                                12   A previous OIG report identified eight initial hospital diagnoses as at
                                     risk for receiving inadequate care (dementia, renal failure, diabetes,
                                     Alzheimer’s, heart failure, multiple sclerosis, pulmonary disease,
                                     quadriplegia).

                                13   Department of Health and Human Services, Office of Inspector
                                     General, Final Report, “Medicare Beneficiary Access to Home Health
                                     Agencies,” OEI-02-99-00530, October 1999.

                                      Government Accountability Office, “Interim Payment System for
                                      Home Health Agencies,” No. HEHS-98-234, August 6, 1998. 


                                      Government Accountability Office, “Closures Continue, With Little

                                      Evidence Beneficiary Access Is Impaired,” No. HEHS-99-120,     

                                      May 1999. 


                                      Medicare Prospective Payment Assessment Commission, “Report to

                                      the Congress: Post-Acute Care Providers: Moving Toward Prospective

                                      Payment,” March 1999. 


                                14   Department of Health and Human Services, Office of Inspector
                                     General, analysis of National Claims History file data 2004.
                                     (2000: 64%, 2001: 66%, 2002: 65%, 2003: 64%)

                                15   Department of Health and Human Services, Office of Inspector
                                      General, Final Report, “Adequacy of Home Health Services: Hospital
                                      Re-Admissions and Emergency Room Visits,” OEI-02-99-00531,
                                      September 2000.

                                16   The ICD-9 codes from many of the beneficiaries in our 2000 data were
                                     missing. These omissions may explain some of the immediate changes
                                     in the percentages from the IPS in 2000 to PPS in 2001.




OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   11
 Δ          A P P E N D I X                                    A            





OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   12 

    A G     E N     C Y           C O            M M E N T                         S 





OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   13
    A G     E N     C Y           C O            M M E N T                         S 





OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   14
 Δ          A C K N O W L E D G M E N T S                                                                           




                                This report was prepared under the direction of Joyce M. Greenleaf,
                                Regional Inspector General for Evaluation and Inspections in the
                                Boston regional office, and Russell W. Hereford, Assistant Regional
                                Inspector General. Other principal Office of Evaluation and Inspections
                                staff who contributed include:

                                Danielle Fletcher, Project Leader
                                Sandy Khoury, Program Specialist

                                Tricia Davis, Director, Medicare and Medicaid Branch



                                Technical Assistance

                                Scott Horning, Program Analyst




OEI-01-04-00160 THE EFFECT   OF THE   H O M E H E A LT H P R O S P E C T I V E PAY M E N T S Y S T E M   ON THE   QUALITY   OF   H O M E H E A LT H C A R E   15
